<html>
<title> - PREVENTION OF EQUINE CRUELTY ACT OF 2008, AND THE ANIMAL CRUELTY STATISTICS ACT OF 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



     PREVENTION OF EQUINE CRUELTY ACT OF 2008, AND THE ANIMAL CRUELTY 
                         STATISTICS ACT OF 2008

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                        H.R. 6598 and H.R. 6597

                               ----------                              

                             JULY 31, 2008

                               ----------                              

                           Serial No. 110-201

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.govFOR 
                               SPINE deg.
             PREVENTION OF EQUINE CRUELTY ACT OF 2008, AND 
               THE ANIMAL CRUELTY STATISTICS ACT OF 2008


 
   PREVENTION OF EQUINE CRUELTY ACT OF 2008, AND THE ANIMAL CRUELTY 
                         STATISTICS ACT OF 2008

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                        H.R. 6598 and H.R. 6597

                               __________

                             JULY 31, 2008

                               __________

                           Serial No. 110-201

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-830 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JULY 31, 2008

                                                                   Page

                               THE BILLS

H.R. 6598, the ``Prevention of Equine Cruelty Act of 2008''......     3
H.R. 6597, the ``Animal Cruelty Statistics Act of 2008''.........     6

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     8
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................    10

                               WITNESSES

Ms. Liz Clancy Ross, Federal Policy Advisor, Animal Welfare 
  Institute, Alexandria, VA
  Oral Testimony.................................................    12
  Prepared Statement.............................................    15
The Honorable Charles W. Stenholm, former Member of Congress, 
  Texas
  Oral Testimony.................................................    44
  Prepared Statement.............................................    46
Mr. John Boyd, Jr., President, National Black Farmers 
  Association, Baskerville, VA
  Oral Testimony.................................................    49
  Prepared Statement.............................................    51
Mr. Douglas G. Corey, DVM, Adams, OR
  Oral Testimony.................................................    55
  Prepared Statement.............................................    57
Mr. Nicholas H. Dodman, DVM, Co-Founder, Veterinarians for Equine 
  Welfare and Humane Society Veterinary Medical Association, 
  Westborough, MA
  Oral Testimony.................................................    61
  Prepared Statement.............................................    64
Mr. Wayne Pacelle, President and CEO, Humane Society of the 
  United States, Washington, DC
  Oral Testimony.................................................    76
  Prepared Statement.............................................    79

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    10

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........   111
Letter from the American Quarter Horse Association, and the 
  Animal Welfare Council submitted by the Honorable Louie 
  Gohmert, a Representative in Congress from the State of Texas, 
  and Ranking Member, Subcommittee on Crime, Terrorism, and 
  Homeland Security..............................................   113
Letter from the American Veterinary Medical Association (AVMA)...   118
Letter from Charles W. Stenholm, Olsson Frank Weeda Terman Bode 
  Matz PC, Attorneys at Law......................................   121
Additional Material submitted by Wayne Pacelle, President and 
  CEO, Humane Society of the United States, Washington, DC.......   123
Attachments to Prepared Statement of Wayne Pacelle, President and 
  CEO, Humane Society of the United States, Washington, DC.......   232


   PREVENTION OF EQUINE CRUELTY ACT OF 2008, AND THE ANIMAL CRUELTY 
                         STATISTICS ACT OF 2008

                              ----------                              


                        THURSDAY, JULY 31, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to noticel, at 9:34 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Conyers, Scott, Delahunt, Gohmert, 
Sensenbrenner, and Coble.
    Staff present: Bobby Vassar, Majority Chief Counsel; 
Jesselyn McCurdy, Majority Counsel; Mario Dispenza, (Fellow) 
BATFE Detailee; Karen Wilkinson (Fellow) (AOC) Federal Public 
Office Detailee; Veronica Eligan, Professional Staff Member; 
Caroline Lynch, Minority Counsel; Kimani Little, Minority 
Counsel; and Kelsey Whitlock, Minority Staff Assistant.
    Mr. Scott. The Committee will now come to order, and I am 
pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on H.R. 
6597, the ``Animal Cruelty Statistics Act of 2008,'' and H.R. 
6598, the ``Prevention of Equine Cruelty Act of 2008.''
    According to many sources, animal cruelty is a widespread 
problem in the United States; however, the Federal Government 
does not collect specific data on animal cruelty crimes.
    The scant data that we do collect is usually mixed in with 
other crimes categories yielding little useful information.
    H.R. 6597 will establish a comprehensive and consistent 
collection of data on animal cruelty crimes providing 
heightened awareness for the problem of animal cruelty and 
assisting in determining whether legislation is necessary.
    H.R. 6597 directs the Attorney General to make appropriate 
changes in existing crime databases so that data on animal 
cruelty crimes will be collected, made available to the public, 
and Congress will have the necessary data for making 
legislative decisions over this matter.
    H.R. 6598, the ``Prevention of Equine Cruelty Act of 
2008,'' addresses the continuing problem of cruelty to horses 
through slaughter for human consumption.
    Despite the fact that in 2007, the last three horse 
slaughter houses in the United States were closed as a result 
of Federal court rulings, the practice of horse slaughter for 
human consumption has not gone away.
    After the closures of the U.S. horse slaughter houses, so-
called ``killer buyers'' simply increased horse exports to 
Mexico and Canadian slaughter houses. They continued their 
trade almost unimpeded by the closures, and their trade is 
lucrative.
    In some parts of the world horse meat is considered a 
delicacy, creating a high demand. In fact, as of September 
2007, the number of horses shipped to Mexico slaughter houses 
has jumped 369 percent from the number shipped in 2006.
    The number of horses exported to Canada for slaughter 
increased by 46 percent. According to one study, four new horse 
slaughter houses opened in Canada between 2007 and early 2008.
    Opponents of these bills argue that horse slaughter 
provides a service that, without horse slaughter, the number of 
unwanted horses would increase dramatically, but this seems 
unlikely.
    Since 1990, the number of horses going to slaughter has 
decreased from a high of more than 350,000 horses to just over 
120,000 horses last year with no correlation--correlating 
epidemic of unwanted horses.
    Moreover, while data is scarce, many people believe that 
the large number of horses sold to slaughter houses were not 
unwanted but were stolen out of pastures and barns.
    In support of this theory, the Humane Society reports that 
when California banned horse slaughter in 1998, horse thefts 
dropped by 34 percent.
    Opponents also argue that horse slaughter for human 
consumption is a form of humane euthanasia, but overwhelming 
veterinary sources suggest otherwise. They find that most 
humane euthanasia is via relatively painless chemical injection 
which costs about $225.
    Moreover, the slaughter process is very difficult to call 
humane. The slaughter process generally starts with the 
purchase of horses at a horse auction by the so-called ``killer 
buyers.''
    The horses then travel long distances, sometimes more than 
24 hours, to the slaughter house with no water, food, or rest.
    Procedures for killing the horses at slaughter houses vary, 
but by all accounts, each is very disturbing.
    H.R. 6598 responds to this problem. It criminalizes the 
possession, shipment, transport, purchase, sale, delivery, or 
receipt of any horse with the intent that it be slaughtered for 
human consumption. The bill also criminalizes the shipment of 
horse carcasses or flesh for the purpose of human consumption.
    [The bills follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                <F-dash>

    Mr. Scott. It is my pleasure now to recognize the Ranking 
Member of this Subcommittee, the gentleman from Texas, Judge 
Louie Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    Today's hearing will focus on H.R. 6598 as one of the 
bills. This one would criminalize the sale, possession, and 
transport of horses if a person knows the horse would be 
slaughtered for human consumption.
    We will also focus on a second bill, 6597, which seeks to 
require the Department of Justice to collect data on animal 
cruelty crimes.
    It seems like there is a divergence of opinion on some of 
these. I know some of us were very concerned in the last 
Congress, when I was here for the first time, some of the 
inhumane ways in which horses were being put down in the 
slaughter houses; very disturbing.
    But then we did have information in the--my friend, 
Chairman Scott had mentioned the veterinary sources--and I know 
we have a witness that will address that.
    But, you know--then we got a letter from the American 
Veterinary Medical Association last Congress saying they were 
opposed to the bill to close the slaughter houses, actively 
pursuing defeat and then gave some factual information from 
their standpoint.
    Just this week, we have gotten a letter from the American 
Quarter Horse Association. It says it was addressed to Chairman 
Scott and to me and Lamar Smith, and also from the Animal 
Welfare Council dated July 30th.
    They were--the Animal Welfare Council says they want to 
express their serious concern regarding H.R. 6598. And then 
they raised some of the concerns regarding the bill that they 
have, and the American Quarter Horse Association expressed 
their regret about being able to get here for the hearing that 
they were not aware of until this week.
    And so I would ask that those two letters from Animal 
Welfare Council, and also the American Quarter Horse 
Association be entered as part of the regard with unanimous 
consent.
    Mr. Scott. Without objection.
    [The information referred to is available in the Appendix.]
    Mr. Gohmert. But regarding the first bill, reading some of 
the information from those sources, I have been concerned about 
the reports that this could add to the already-growing number 
of cruelty to and abandonment of horses.
    And I know Ms. Ross addresses this issue in her testimony, 
but, you know, anecdotally, I have been hearing those reports. 
We are having more horses released in east Texas, people 
telling me, well, they hear folks say they paid $300 to $500 
for a horse and they can't afford to have a vet put him down.
    And, you know, they can't afford to keep them going, and 
the horse is one of the most important--most expensive animals 
to keep as a pet if that is what you are going to do. So that 
has caused some concern.
    But under current law, transporting horses for slaughter to 
foreign countries, such as Mexico or Canada, is legal and 
regulated by the U.S. Department of Agriculture.
    The sponsors of the legislation seek to expand Congress' 
jurisdiction and affect extra territory by adding this crime to 
our Federal code, which others have raised, causes issues of 
treaty violations.
    Professor John Baker, of Louisiana State University Law 
School, recently published a report on this trend--revisiting 
the explosive growth of Federal crimes.
    In his paper, Professor Baker writes that over the past 25 
years, Congress has, on average, created over 500 new crimes 
per decade. His research indicates there are at least 4450 
Federal crimes in the U.S. Code, 452 of which being created 
since 2007.
    And one of the issues in so many of these new crimes is the 
mens rea, or the requirement of intent or guilty mind. But one 
concern is that 6598 would criminalize the possession, 
transport, or sale of a horse that is intended to be 
slaughtered that it may allow people to be pursued that did not 
intend to commit a wrongful act.
    We have heard many stories of these rising rates of horses 
being abandoned because the owners could not afford to keep 
them. And so we will be interested in hearing and gathering 
more information on that.
    It does make it difficult, like in my days as a judge, when 
you have got two sides that paint completely different pictures 
of getting down to what really is the true situation.
    We previously heard heartrending information about how some 
horse slaughter facilities, most or all, had to have been 
inhumanely killing horses.
    We have seen photographs, films, and, obviously, that is a 
concern to anybody with a heart or eyes to see.
    But my main concern with 6597, the second bill before the 
Subcommittee today, is that it may not likely get us the 
information that is being sought, though most of us would 
really like to have that kind of data to know just how 
significant a problem this is.
    The bill requires the Department of Justice to change 
existing crime databases so that data on all crimes of human--
or animal cruelty will be collected.
    The department's crime database is a national repository 
for fugitive warrants, criminal charges, and trial 
dispositions. Currently, the department merely maintains a 
database that state and local law enforcement officials upload 
information into.
    The department could create a category for animal cruelty 
cases, and I would expect would do that, but state and local 
law enforcement officials have no obligation to provide 
statistics for category of cases.
    A problem is that many animal cruelty charges are 
misdemeanors, and law enforcement officials only provide 
information on felonies.
    Also, many animal cruelty cases are, apparently, 
investigated by civil animal welfare agencies rather than 
criminal law enforcement officials. These civil agencies do not 
report statistics about the civil penalties they impose to the 
department though it would be helpful information.
    Many of these civil agencies also are barely able to meet 
their obligations financially as it is and would not welcome 
additional unfunded mandates.
    I do welcome the witnesses and look forward to hearing 
their testimony on these issues that remain so very difficult.
    With that, I yield back the balance of my time, Chairman.
    Mr. Scott. Thank you.
    Mr. Conyers, Chairman of the full Committee?
    Mr. Conyers. Thank you very much, Chairman Scott and Judge 
Gohmert.
    I am going to ask unanimous consent to have my statement 
put in the record.
    Mr. Scott. With no objection, so ordered.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    Horse slaughter for human consumption has aptly been called by T. 
Boone Pickens as ``America's Dirty Secret.''
    In the United States, horses serve recreational and work purposes, 
but not as a food source which explains why there are no horse 
slaughterhouses in the United States.
    Americans generally do not support the slaughter of horses for 
human consumption. So why do we allow our to horses to be shipped to 
other countries to face cruel and inhumane deaths so that they can 
become horsemeat?
    I want to put an end, once and for all, to the slaughter of 
American horses for human consumption, and that is why I have 
introduced two important pieces of legislation.
    H.R. 6598, the ``Prevention of Equine Cruelty Act of 2008,'' will 
make it illegal to slaughter American horses for human consumption.
    And, H.R. 6597, the ``Animal Cruelty Statistics Act of 2008,'' will 
require the collection of data on all types of animal cruelty crimes.
    I want to respond to three arguments that proponents of horse 
slaughter for human consumption.
    First, they claim that this practice is somehow humane. I ask, how 
it can possibly be humane to take a horse from a farm or ranch, 
transport it for more than 24 hours without food or water to a strange 
location, force it into a ``killer shoot'' slippery with blood, stab it 
repeatedly in the neck, hoist it up by one leg while it is still alive, 
and then slit its throat to let it bleed to death. How is this practice 
be anything but inhumane?
    Second, these proponents claim that this practice simply serves to 
get rid of ``unwanted'' horses. The truth is that horse rescue groups 
often attend these slaughter auctions and bid on these so-called 
``unwanted'' horses, only to be out-bid by the buyers for the foreign 
slaughter houses. I'm told that these rescue groups would give these 
horses good homes.
    I'm also told that many people sell their horses at auctions 
without knowing that they are sending their horse to its death. When 
they find out the truth they are devastated. And, if there truly are 
such ``unwanted'' horses, isn't there a better way to solve the problem 
that the cruel system of horse slaughter?
    Third, proponents of horse slaughter for human consumption is a 
slippery slope. If they say that if we ban the slaughter of horses for 
human consumption today, then slaughter of cattle for human consumption 
will be banned tomorrow. I know John Boyd, with the National Black 
Farmers Association, is supporting my bill. He also is a cattle farmer. 
He is not buying into the ``slippery slope'' argument.
    It seems to me that we have always treated horses differently from 
cattle. We have never raised horses for the purpose of human 
consumption. This is a big difference rooted in hundreds of years of 
tradition and culture. It would seem to stop any ``slippery slope.''
    I thank Mr. Scott for holding this important hearing and look 
forward to hearing from our witnesses as they talk about ``America's 
dirty secret.''

    Mr. Conyers. And then--I only want to tell you that T. 
Boone Pickens calls horse slaughter ``America's dirty secret.'' 
And I haven't talked with him about why he has used this 
phrase, maybe we will find out here today.
    I will yield back my time.
    Mr. Scott. Thank you.
    We have a distinguished panel of witnesses with us today to 
discuss the legislation before us.
    Our first witness is Ms. Liz Ross, Federal policy adviser, 
Animal Welfare Institute.
    Before her work with the Animal Welfare Institute, she 
worked at the Doris Day Animal League for more than a decade. 
She has over two decades of work in animal protection with a 
specialty in equine protection. Since 2001, she has been deeply 
involved in the campaign to end slaughter houses for human 
consumption.
    She earned her Bachelor of Science degree from Middlesex 
University in London.
    I think the Chairman of the Committee requested to 
introduce the next witness, a former representative, Mr. 
Stenholm.
    Mr. Conyers. Well, I wanted to introduce Charlie Stenholm 
because I am one of the few people still around that was here 
when he was here, and I am delighted to see him again.
    He is a senior policy adviser in the Olsson Law Firm. He 
represented Texas for many years, was senior Member on the 
Agriculture Committee.
    He was in the Congress for 26 years, and he is the 
immediate past president of the American Association of 
Equine--wait a minute. No, he wasn't the past president. 
[Laughter.]
    He has received honorary law degrees from a number of 
universities. And he was--I remember his bills on economic 
policy very well across the years.
    He enjoyed the great support of our leadership, and I am 
happy to see him again.
    Mr. Scott. Thank you.
    And you are not the only one that served with Charlie 
Stenholm. We all very much respected his work with fiscal 
responsibility, helping to guide us through the years when we 
actually balanced the budget and ran into surplus to a large 
extent to the--through the work of Charlie Stenholm and others.
    So thank you, Representative Stenholm, for being with us 
today.
    It would be great privilege and honor to introduce the next 
witnesses from the Commonwealth of Virginia, however, the 
gentleman from Michigan has asked to introduce him, too.
    So I will yield to the gentleman from Michigan to introduce 
my good friend from the Commonwealth of Virginia.
    Mr. Conyers. I didn't know I was trespassing on your state 
sovereignty prerogatives. [Laughter.]
    But--nor did I know you had been around that long either. I 
had forgotten that you, too, had served with Charlie Stenholm.
    But John Boyd and I go back a long time. He is not from 
Michigan, but I have known him longer than the Chairman is the 
only thing I can claim.
    He created--because of the disparity in the way farmers of 
color have been treated in terms of being able to enjoy some of 
the Federal legislation to support those in the agriculture 
industry, he formed the National Black Farmers Association.
    He himself is a fourth-generation farmer, still has a huge 
farm in Mecklenburg County and has owned horses and has a 
bachelor degree. But he is an activist. That is the thing I 
like about him.
    He is still on the battlefield fighting for minority 
farmers all these years, and we are happy to have him here.
    Mr. Scott. Thank you. And he is a friend of many people and 
very much honored in Virginia and throughout the Nation for his 
work with the National Black Farmers Association. So welcome.
    Our next witness is Douglas Corey of Adams, Oregon. He 
practices equine medicine at Associated Veterinary Clinic, a 
five-person mixed animal practice.
    He is the immediate past president of the American 
Association of Equine Practitioners and has held many 
leadership positions within the organization including chair of 
the Equine Welfare Committee.
    He is a graduate of Whitman College in Walla Walla, 
Washington and earned his veterinary degree from Colorado State 
University.
    Dr. Nicholas Dodman is the section head and program 
director of the animal behavior department of clinical sciences 
at Tufts Cummings School of Veterinary Medicine in 
Massachusetts.
    He specializes in animal behavior and has written for best-
selling books, two text books, and more than a hundred 
articles.
    He graduated from Glasgow University, a veterinary school 
in Scotland. He is a member of the American Veterinary Medical 
Association, the Royal College of Veterinary Surgeons, American 
College of Veterinary Behaviorists, and the American College of 
Veterinary Anesthesiologists.
    He is a founding member of the Vets for Equine Welfare and 
a member of the leadership council of the Humane Society 
Veterinary Medical Association.
    Wayne Pacelle is president and CEO of the Humane Society of 
the United States, the Nation's oldest--excuse me--the Nation's 
largest animal protection organization.
    He has worked extensively in Congress and state 
legislatures to prohibit the slaughter of horses for human 
consumption.
    He has written countless articles on animal protection. He 
has a bachelor's degree from Yale with a dual major in history 
and studies in the environment.
    Now, each of our witnesses' written statements will be made 
part of the record, each statement in its entirety.
    We would ask that each witness summarize his or her 
testimony in 5 minutes or less and stay within that time. There 
is a timing device at the table which will start off green, go 
to yellow when 1 minute is left, and finally red when their 5 
minutes are up.
    We will begin with Ms. Ross.

 TESTIMONY OF LIZ CLANCY ROSS, FEDERAL POLICY ADVISOR, ANIMAL 
               WELFARE INSTITUTE, ALEXANDRIA, VA

    Ms. Ross. Good morning. I am Liz Ross. I am Federal policy 
adviser for the Animal Welfare Institute here in Washington.
    I just want to thank you Chairman Scott, Chairman Conyers, 
and Judge Gohmert for holding this hearing today and the staff 
who I know put so much work into bringing this together.
    I truly appreciate the opportunity to testify in favor of 
the Conyers-Burton Prevention of Equine Cruelty Act and, 
Chairman Conyers, we can't thank you enough for sponsoring the 
bill.
    Before I start into my testimony, I would like to also just 
go on record that I and my organization support, as well, H.R. 
6597, the Animal Cruelty Statistics Act.
    I would also like to correct part of my record. Congressman 
Stenholm corrected me this morning that he is not working--the 
slaughter houses are not a client of his, and that was in my 
written testimony. So I wish to correct that for the record.
    With more than two decades of experience in the animal 
protection community, I have had the honor of working with 
legislators here in Washington as well as in the British and 
European parliaments. I have been integrally involved in the 
effort to end horse slaughter via the legislative process.
    I am a founding member of the Home 4 Horse Coalition. I and 
my organization have partnered with the National Black Farmers 
Association to place at-risk horses in good homes.
    And I also serve on the board of directors for Global 
Federation of Animal Sanctuaries.
    I first became aware of horse slaughter back in 2000 when I 
went to the New Holland Sales Stable in Pennsylvania. This is a 
weekly sale where hundreds of horses are sold, many of them 
going to slaughter.
    And the animal cruelty and terror that I witnessed that day 
and everything that I learned about the slaughter trade 
thereafter was so disturbing to me that, upon returning to 
Washington, I sat down with my colleagues, including Chris Hyde 
of the Animal Welfare Institute, and started piecing together a 
legislative fix to this problem.
    Chris and I had the honor of working with then 
Representative Connie Morella, who introduced the first 
incarnation of the American Horse Slaughter Prevention Act, the 
predecessor to the bill before you today.
    Her bill was introduced in the 107th Congress. It was 
reintroduced in subsequent Congresses gaining great 
congressional and public support. In fact, in the 109th, it 
passed the House by a landslide vote of 263 to 146, but failed 
to do so in the Senate.
    Sponsors reintroduced this at the start of the 110th. It 
currently has 206 co-sponsors in the House and 39 in the 
Senate. But, again, it stalled in Committee.
    Attempts to remedy the situation through the appropriations 
process have also hit a brick wall.
    As you noted before, horses are not currently being 
slaughtered in the United States. Under state law, the plants 
in Texas and Illinois were shut down.
    But our horses are still being slaughtered and butchered 
for human consumption overseas by high-end diners. They are 
simply being transported further to Canada and Mexico where, if 
you can imagine, the process is even more brutal than it is or 
was here in the United States.
    That, combined with the patchwork of state laws that 
actually could have it so that plants could reopen in states 
with lesser laws than those in California, Illinois, and Texas, 
really cry out for a strong Federal statute to shut down this 
trade.
    You may hear that horse slaughter is a necessary evil 
without which horses will suffer abuse and neglect. The horse 
slaughter industry exists to turn a profit, and it exists 
because of the money to be made. It actually engenders abuse 
and neglect.
    Regarding what to do with all of the unwanted horses should 
we shut this trade down again, you noted at the start, Mr. 
Chairman, that 350,000 horses were slaughtered in 1990 and that 
dropped to just over 100,000 last year. There has been no flood 
of unwanted horses running in our fields and streets because--
this is again, a market-driven industry.
    If slaughter were no longer an option, old and sick horses 
could be euthanized, humanely euthanized by a vet and their 
bodies rendered or buried, which is what this country does with 
hundreds of thousands of horses every year.
    But most horses going to slaughter are good, healthy, sound 
horses. In fact, the USDA cites that 92 percent of horses going 
to slaughter are in good condition, so they don't need to be 
lethally disposed of.
    Some have tried to blur the line between slaughter and 
humane euthanasia. There is nothing similar between the two.
    Humane euthanasia is a peaceful process. Slaughter is a 
brutal process. And if there is any doubt in your mind about 
this, I have submitted pictures that are quite graphic along 
with my testimony that shows just how brutal this trade is.
    Mr. Chairman, the ultimate goal for genuine equine 
advocates has always been the passage of a Federal bill, and 
were it not for the people who are opposing this bill while, at 
the same time decrying the export of horses to Mexico and 
Canada, we wouldn't be before you today asking for your help.
    Some have actually questioned whether it makes sense to 
take the judiciary route and to criminalize horse slaughter via 
Title 18.
    Not only is there a legislative precedent for doing so, but 
horse slaughter, in every respect, is a form of animal cruelty 
and ought to be recognized and treated as such.
    Every 5 minutes, an American horse is slaughtered. We don't 
raise them for human consumption, we don't eat them, yet our 
horses continue to be brutally slaughtered.
    These are our pets, our work horses, our race horses, and 
they are suffering an unimagined terror and pain so that 
someone can make a buck.
    There can be no doubt that this is cruelty, and it ought to 
stop. We respectfully request that the Committee and the United 
States Congress quickly pass the Conyers-Burton Prevention of 
Equine Cruelty Act into law.
    Mr. Chairman and Members of the Committee, thank you for 
the opportunity to testify.
    [The prepared statement of Ms. Ross follows:]

                 Prepared Statement of Liz Clancy Ross

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Representative Stenholm?

 TESTIMONY OF THE HONORABLE CHARLES W. STENHOLM, FORMER MEMBER 
                       OF CONGRESS, TEXAS

    Mr. Stenholm. Chairman Scott and Ranking Member Gohmert, 
Chairman Conyers, it is indeed a pleasure for me to be here 
today. I thank you for your kind remarks of my previous 
service.
    Now, I want to correct one thing in my record, also, where 
I say that I speak for all animal agriculture. That is a 
misstatement.
    There is a minority voice in animal agriculture that 
disagrees with my opinion, and I respect that.
    We are a Nation that believes in majority rule. We are all 
entitled to our opinions, but we are not all entitled to our 
facts. And I respectfully differ with the opinions of those 
here at this table.
    We can all agree, though, on one thing--99.9 percent of us 
acknowledge that all animals should be treated humanely from 
birth until death. There is no argument on that one from me or 
anyone else that I purport to represent.
    But the definition of humane treatment is debatable. I have 
been to a horse processing plant. I have witnessed it. I have 
been to beef, pork, poultry, and fish plants. I would not 
describe it as pleasant, but it is humane and what happens in 
our society and the animal industry.
    Now, we warned Congress, those of us who have a different 
opinion, last year, if you pass this legislation and you 
prohibit the processing of horses, there will be unintended 
consequences, and there are unintended consequences all over 
the country today.
    As ascertained by our National Association of Counties, 
National Association of State Departments of Agriculture, and 
Sheriff's Departments, there is no question that there are 
unintended consequences. Horse owners are having a difficult 
time finding a place for their unwanted horses.
    It is true that exports of live horses to Mexico have 
increased dramatically. It is true that exports of live horses 
to Canada have increased dramatically. If you pass this 
legislation, theoretically, that will stop--theoretically.
    I do represent the livestock markets of America, some 800 
individual small businesses, basically, that have in the past 
sold horses. If this legislation passes, they will no longer be 
able to sell horses because they can not assume the 
responsibility for a horse that comes to their sale for which 
there is no buyer.
    That is another problem with this legislation. The problem 
with banning the processing of horses is the price floor for 
unwanted horses that the processing industry has provided will 
be gone. And this is what the majority at this table would like 
to see, but Dr. Corey and I have a different opinion.
    Now, you hear a lot about unfunded mandates. Mr. Chairman, 
Members of this Committee, if this legislation were to pass and 
if horse processing for human consumption is absolutely totally 
banned the state, county, and local governments are going to 
have to assume a tremendous amount of additional responsibility 
because there are no funds being provided.
    There are some excellent horse sanctuary organizations. We 
have one in Texas. Judge Gohmert, you are aware of Black 
Beauty. They do a great job, but they are extremely full. And 
there are others that do a great job.
    But there is not enough money and there is not enough 
effort to take care of all of the unwanted horses. And I can 
understand, personally, if an individual horse owner does not 
wish their horse to be processed for human consumption. I am 
for you; don't sell your horse. Do with it as has been 
suggested that you should all do.
    But why would this Committee superimpose your will on a 
horse owner that does not object to their horse being processed 
for human consumption?
    Why would you want to superimpose your will on an 
individual horse owner that does not object? That would rather 
have their horse consumed in countries that do eat horse meat 
as long as it is done humanely? We don't.
    Why would you want to superimpose your views on them, of 
saying what they can and can't do with their horse? Except, of 
course, to treat your horses humanely
    That is the problem that has always been a concern to me. 
We are a Nation of laws. We are a Nation of private property 
rights, and why would we superimpose our views on a minority or 
a majority of those who do not object?
    If you would prefer to have your horse euthanized and sent 
to a garbage dump, I am for you. But why would you oppose a 
horse owner that does not object to their horse being consumed 
by someone that does believe it is okay according to their 
customs?
    Mr. Chairman, again be careful on unfunded mandates. There 
is an excellent op-ed in the Washington Post this morning from 
the governor of New York about unfunded mandates and the costs 
that are occurring.
    This will be one of the biggest unfunded mandates on many 
small towns and communities that could possibly be passed.
    A final interesting point, we are importing our horse meat 
back in the United States to feed our zoo animals because, as 
you all know, zoo animals prefer horse meat.
    When this meat comes into the United States, it is fit for 
human consumption because, contrary to popular opinion, any 
horses that are processed in Canada or Mexico that go into 
international trade must meet U.S. food safety requirements, of 
which all of us agree, must be met.
    Thank you for your attention.
    [The prepared statement of Mr. Stenholm follows:]

        Prepared Statement of the Honorable Charles W. Stenholm

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Mr. Boyd?

TESTIMONY OF JOHN BOYD, JR., PRESIDENT, NATIONAL BLACK FARMERS 
                  ASSOCIATION, BASKERVILLE, VA

    Mr. Boyd. Good morning. Good morning. Thank you, Chairman 
Scott, Chairman Conyers, Ranking Member Gohmert.
    It is a pleasure to be here this morning, and I appreciate 
the kind words during the introduction.
    I first learned about this issue through an HBO special 
that I saw with Bryant Gumbel that talked about horse 
slaughter.
    I am a fourth-generation farmer. My father was a farmer. My 
grandfather was a farmer. And where I come from, we don't eat 
horses. Where I come from, we use horses as a way of living, 
for work.
    When I was a little kid, my first job in the morning was to 
get up and brush my grandfather's mules and feed them. And I 
used to--I asked him one time, I said, Well, granddaddy, why do 
I have to brush them? And I got a whooping for about an hour 
because that was the way that he made a living for his 15 
children, and that was the way that he made a living to raise 
his grandchildren and so on and so forth.
    So I beg to differ with Mr. Stenholm, who I have a lot of 
respect for. I have known him a long time, as you have, too, 
for his work on the Agriculture Committee.
    But I agree with T. Boone Pickens. This is America's 
``dirty little secret.'' How can I not know that people were 
slaughtering horses for food consumption? Nobody on my board of 
directors knew that we were slaughtering horses for food 
consumption. And I think it comes to a point where you have to 
draw a line in the sand.
    I am a farmer. Nobody is trying to take away the rights to 
raise cattle or to raise hogs or to raise chickens. That is not 
what this hearing is about, and our opponents may allude to 
that.
    This is about a mere right-and-wrong issue, Mr. Chairman; 
about killing horses for consumption. And this is a right-and-
wrong issue about greed from the people, the middle men, who 
want to make money.
    I don't know of one farmer in America--Mr. Stenholm may 
disagree here--that raises horses for slaughter.
    I don't know any members in my organization that raise 
horses for slaughter. So I agree with that assumption that some 
farmers may allude to that.
    When we sell horses, it is not our objective to have a 
horse slaughtered. We are thinking that this horse is going to 
go on to another farm.
    I would like to address one other point: the unwanted 
theory. There is not all these horses running around and--in 
the south--and people don't want these horses or anything like 
that. That is not the issue. This is about people who want to 
make money off of horse slaughter.
    So I heard about the issue with HBO and I reached out to 
the Animal Welfare Institute, and we wanted to tie our 
membership and to place some of these horses in our membership 
around the country.
    And we think that is a perfect fit. Most farmers want 
horses. Most farmers have horses on their farms. And we think 
it is a perfect fit to help place some of these horses on the 
farms around the country.
    So with that said, all the issues about all of these 
unwanted horses, yes, we have times of economic hard times and 
farmers are having difficulties, things of that nature. Feed 
and hay and all of these things play a factor.
    But most of us hold on to our livestock and we treat our 
livestock very well. As you heard to my upbringing, that was 
one of the things that we had to do was make sure that we kept 
up our livestock and take care of it.
    So a lot of the things that I have heard today, I kind of 
disagree with. We want to end horse slaughter in America, and 
here again, where I come from, I don't know about you, but we 
don't eat horses.
    We may eat some beef and some other things, but we don't 
eat horses.
    So we are here in support of the bill and, Chairman 
Conyers, we appreciate you introducing this legislation, and we 
are looking forward to working with other Members to get the 
bill passed.
    Thank you very much.
    [The prepared statement of Mr. Boyd follows:]

                  Prepared Statement of John Boyd, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Dr. Boyd.
    I want to recognize the gentleman from Massachusetts, Mr. 
Delahunt, who has joined us today.
    Dr. Corey?

         TESTIMONY OF DOUGLAS G. COREY, DVM, ADAMS, OR

    Mr. Corey. Thank you. Chairman Scott and distinguished 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today.
    I am Dr. Douglas Corey. I have practiced equine medicine 
for over 30 years. And I am here today as the immediate past 
president of the American Association of Equine Practitioners 
and as past chairman of the AAEP's Equine Welfare Committee.
    The AAEP is a professional association representing nearly 
10,000 equine veterinarians and veterinary students worldwide. 
Our mission is to protect the health and welfare of the horse.
    Unwanted horses in the United States are facing a crisis. 
From New York to California, horses that are considered at risk 
in the equine population are being severely impacted by a 
struggling economy, high grain, high hay prices, high fuel 
prices, and the closure last year of the three U.S. slaughter 
plants.
    The result, increased equine cruelty in the form of abuse, 
neglect, and abandonment.
    You have to look no further than the national magazines, 
your own local newspapers, to see evidence of the negative 
impact on the unwanted horse population.
    From Time Magazine, May 2008, an epidemic of abandoned 
horses. From USA Today, March 2008, U.S. shelters saddled with 
unwanted horses. In The Washington Post, January 2008, Loudoun 
County, VA, gets 47 cruelly-treated horses. And from my home 
state of Oregon, the Bend Bulletin headline just last week 
read: Oregon horse owners face tough decisions.
    Headlines aside, those of us who are in the field every day 
practicing equine veterinary medicine know the harsh realities 
confronting horses that are unwanted.
    My colleagues are increasingly alarmed by the growing 
number of clients who can no longer afford care for their 
animals. Fortunately, some of these horses are sold to new 
owners or are able to be placed in a rescue or retirement 
facility.
    However, more of these horses are left unsold at auctions 
even with rock-bottom prices. Others endure a worse fate of 
being neglected by their owners or abandoned.
    In the state of Colorado alone, equine cruelty 
investigations have been up 40 percent in 2007.
    While it is difficult to get an accurate count of the total 
number of unwanted horses in the United States, we know from 
the number of horses that are currently being sent to 
processing plants in North America that that number is in the 
tens of thousands.
    In 2006, the last year that the U.S. processing plants were 
open for the entire fiscal year, the U.S. Department of 
Agriculture reported that over 102,000 horses were processed in 
this country alone. The vast majority of those horses were 
unwanted.
    And while processing plants alone are currently closed in 
the U.S., the only option for many of today's horses remains 
processing at a facility outside of this country.
    The AAEP advocates the humane care of all horses and 
believes the equine industry and horse owners have a 
responsibility to provide them humane care throughout the life 
of a horse.
    Because of a large population of the unwanted horses in the 
U.S., the AAEP believes that processing of unwanted horses is 
currently a necessary end-of-life option and provides a humane 
alternative to allowing the horse to continue a life of 
discomfort and pain or endure inadequate care or abandonment.
    Our chief reason for opposing this legislation is not 
because our association believes that sending a horse to a 
processing plant is the best option for reducing the unwanted 
horse population. Our opposition exists because this 
legislation does not address the long-term care and funding 
that will be necessary to help the tens of thousands of horses 
that would be affected by abandonment.
    Assuming a bare minimum cost of $5 per day for a horse's 
basic needs, which does not include veterinary or ferrier 
expenses, the funding needed per horse per year is 
approximately $1,800.
    Multiply this, for example, by the number of horses that 
have been sent to the Mexican processing facilities thus far in 
2008; you have 30,000 horses with a cost care per year of $55 
million. This does not include the large number of horses going 
to Canada.
    I ask: Can the Federal Government help fund the care of 
these horses?
    Those who support a ban on horse processing often state 
that there are currently a number of equine rescue and 
retirement facilities to care for all horses that need homes. I 
strongly dispute this claim.
    While there are a number of facilities in the United States 
providing homes for old and unwanted horses, the capacity of 
these individual facilities is usually limited to 30 horses or 
less.
    In closing, this legislation is premature. Horse processing 
is symptomatic of a much larger issue, and that is how to 
provide the humane care for tens of thousands of unwanted 
horses in the United States.
    We believe the equine industry must work together to find a 
solution to this complex issue. We recognize that there truly 
is a perfect storm of factors impacting this issue right now.
    One of the AAEP's priorities is to help these horses by 
educating owners and encouraging responsible horse ownership. 
That is why the Unwanted Horse Coalition was formed in 2005 by 
the AAEP and is currently under the American Horse Council.
    Last month, the AAEP polled the membership on this issue. 
Seventy-five percent of our members believe that horse 
processing should remain, at this time, an end-of-life 
decision.
    We, the horse veterinarians of this country, know that 
passage of this bill will put the unwanted horse population at 
an even greater risk.
    I urge you to carefully consider the unintended 
consequences of this legislation.
    Thank you.
    [The prepared statement of Mr. Corey follows:]

                 Prepared Statement of Douglas G. Corey

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Dr. Dodman?

TESTIMONY OF NICHOLAS H. DODMAN, DVM, CO-FOUNDER, VETERINARIANS 
   FOR EQUINE WELFARE AND HUMANE SOCIETY VETERINARY MEDICAL 
                  ASSOCIATION, WESTBOROUGH, MA

    Mr. Dodman. Is this on? Yeah.
    Thank you, Mr. Chairman, for this opportunity to testify on 
H.R. 6598, the Prevention of Equine Cruelty Act.
    I have been introduced, but I would just say about my 
credentials that as a vet who was trained in Scotland. I am a 
meat inspector, and did my time in the slaughter plants, and I 
know something about that.
    I am also an anesthesiologist who has anesthetized 
thousands of horses, and I think I am--as a board-certified 
specialist, I am in a position to judge consciousness and 
unconsciousness.
    I am also currently an animal behaviorist, which I got into 
through studies on equine research.
    I want to thank the sponsors of this legislative effort, 
Chairman Conyers, Representative Burton, Subcommittee Chairman 
Scott, Representatives Nadler, Sutton, and Chabot on this 
Committee, the original co-sponsors of this legislation.
    I would say--I want to testify, really, in my main area of 
expertise, but just addressing Dr. Corey's comments just there 
that I am aware of numbers that horses have been killed at one 
time, you know, 15, 20 years ago at 350,000 horses a year were 
being slaughtered.
    That number at the low, dropped to 42,000 horses a year or 
something in that order, you know, almost a 90 percent drop. 
There was no increase in neglect. There was no increase in 
abandonment. There were no horses running up and down the 
freeways.
    The people who would support the continuing of slaughter 
would have you believe that there are unwanted horses to the 
tune of a hundred thousand per year. Nobody knows the exact 
number. They probably are a small number.
    If you take that number that we know we can get down to 
because it is factually true, that is 42,000, and you take off 
both horses that are stolen--and we know that happens because 
of the horse theft figures in California--you take off the 
number of horses that are conned from people from tax shops and 
advertisements, the ones that arrive in slaughter houses with 
little pink bridles on because they belonged to a little girl a 
few days before who never would have agreed to this; the ones 
that are bought out from under riding school people by being 
overbid by a killer buyer; the horses that have been taken from 
the wild.
    If you pare that 42,000 number down, you come up with a 
much smaller number than the one that all these antagonists put 
all their plans by and frighten people, frighten their 
memberships into talking about increased neglect and welfare.
    What I can tell you is that the AVMA is saying, you know, 
we have got these two terrible situations, and Dr. Corey kind 
of alluded to it, you know, on the one hand, there might be, 
but it has never been proven to be, and all the sources Dr. 
Corey quotes are just newspaper reports.
    There is no hard evidence that anything bad will happen if 
you ban slaughter. I personally believe it is a predatory and 
brutal industry that exists solely to generate what I calculate 
to be about a billion dollars between all the hands, and they 
are fighting like crazy to keep it alive, and they are sucking 
healthy horses out of the population just to supply the demand 
for meat to foreign countries.
    Most of the money from this does not go to the United 
States, it goes abroad.
    The whole process, you know, the alternative--people say, 
well, let us not let them starve in a field; let us kill them 
humanely by slaughter.
    It is not humane. It is not euthanasia. Euthanasia means 
good death. This is not a good death. This is the worst death 
you could possibly imagine.
    These plants are like Auschwitz for horses. From the time 
they are conned off their people, from the time they got onto 
that trailer and they ride a thousand miles in extremes of 
weather--with people who say, why bother watering them? They 
are going to die anyway. That is the kind of typical attitude 
of a driver. They break rules.
    I have been involved in the Canadian situation. They take 
double-decker trailers, which we are not allowed to use in 
slaughter plants. They take them to feed lots and dump them 
there for a while, or they drive them straight.
    I have seen film of trailers, double-deckers arriving that 
have driven from, you know, Colorado to Saskatchewan with these 
horses on board. They are terrified. They are milling around. 
They are brought into facilities that are designed for cattle. 
The facilities are atrocious. The floor is slippery with blood 
and urine. The horses--many of the horses are so panicked; they 
are terrified. Their eyes are rolling in their head. Their feet 
are spinning around in circles.
    They are trying to jump out. The smaller ones can turn 
around because the wrong-sized container. The larger ones get 
their heads stuck through the cattle restraint. The shooter 
can't reach around to kill them.
    I mean, the noise is awful. I mean, it is supposed to be 
quiet. You are supposed to have high-sides. You are supposed to 
have non-slip floors. You are supposed to have proper 
arrangements.
    Even the AVMA says that the animal's head should be 
properly secured. These animals are going back and forth like a 
shuttle car, and the man's trying to reach with a gun and a 
stick, and you are trying to shoot something like a fish in a 
barrel that is the size of a grapefruit in a horse's head which 
is this size. And you have got to hit that when it is a moving 
target.
    According to one sticker in the plant in Canada, 50 percent 
of the horses that are subsequently shackled are actually 
conscious.
    I have seen horses with their mouths going and their feet 
running. I estimated 30 percent. He said more like 50 percent.
    They then have their throat cut which takes a while for 
them to bleed out. This is like the old English equivalent of 
hung, drawn, and quartered. And then the next machine cuts 
their legs off above their wrists.
    I wouldn't be surprised--I don't have direct evidence, but 
if some of these horses that have their legs cut off aren't 
still alive. I mean, they are wriggling on the hook like 
salmon.
    If you look at this, you don't need to be a rocket 
scientist, you don't need to be a veterinary behaviorist, you 
don't need to be an anesthesiologist. This is not humane.
    And any group or organization that supports it really has 
to reexamine what they are all about.
    And these polls you hear about, the people listening to 
these, the veterinarians, the AVMA, are being fed wrong 
information and they come to the wrong conclusion.
    Neither extreme is right. There are two evils. And the 
second evil, which is slaughter, there has been no negative 
consequences of banning slaughter that have ever been proven. 
All the people can do is refer to newspaper articles and stuff 
like this.
    There is no hard evidence--350,000 to 42,000--no change in 
the criminal acts of abuse which go on anyway in the background 
at a same consistent rate.
    Thank you for your time.
    [The prepared statement of Mr. Dodman follows:]

                Prepared Statement of Nicholas N. Dodman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Mr. Pacelle?

 TESTIMONY OF WAYNE PACELLE, PRESIDENT AND CEO, HUMANE SOCIETY 
              OF THE UNITED STATES, WASHINGTON, DC

    Mr. Pacelle. Thank you, Chairman Scott, for holding this 
hearing and for all of your work on animal welfare issues and 
also to you, Chairman Conyers, for your leadership throughout 
your career on animal welfare.
    You know, it was just a short number of years ago when 
animal cruelty issues were not taken seriously. And this 
Congress has already enacted animal fighting legislation that 
several of you on this Committee have led because you believe 
that it is wrong and inhumane to stage fights for animals just 
for simple amusement.
    And both bills here today address fundamental issues of 
animal cruelty. And the Humane Society of the United States 
wholeheartedly supports both because we don't believe that 
animals are just things or commodities.
    These animals have the same spark of life that we have. 
They want to live just as much as we want to live.
    And it is precisely because we are smart and intelligent as 
a species that we should be decent and responsible in our 
dealings with other creatures.
    And this is not decency. This is rationalizations that we 
are hearing from folks who are profiting from the exploitation 
of these horses.
    I will say just a few more words about horses later, but I 
do want to say a quick word about the Animal Cruelty Statistics 
Act, H.R. 6597.
    You know, we now treat, as a society, animal cruelty 
seriously because we know it is a vice. It is a moral wrong in 
and of itself.
    But we also know that animal cruelty and the violence 
associated with it cannot be compartmentalized; that people who 
are brutal and harmful and abusive to animals often have those 
same ill sentiments directed toward people.
    We see that in 75 percent of cases where there is domestic 
violence, there is also animal cruelty and vice versa. One day 
it is the animal, another day it is a child, another day it is 
a spouse.
    We need proper reporting of animal cruelty cases because we 
see that serial killers start with animals and they move on to 
people. And we see all sorts of other violence associated with 
animals that then moves on to people.
    So we commend you for introducing, Chairman Conyers, the 
Animal Cruelty Statistics Act. And we don't want this data out 
of curiosity; we want it because it will help prevent crime and 
because it will stop violence in our communities and in our 
Nation.
    Regarding the Prevention of Equine Cruelty Act, you know, 
the other proponents of this legislation have it exactly right. 
Horses are not raised for food. These animals are 
opportunistically collected up by individuals who want to make 
a profit.
    And any industry that is involved in exploiting animals 
is--I have seen it through the years. They have these elaborate 
rationalizations to justify their conduct.
    They don't want to say they are cruel. Of course, you can't 
say that. So you have to concoct some defense that somehow by 
slaughtering these animals, we are doing them a favor; that we 
are preventing terrible cruelty because people will neglect 
them and harm them.
    Well, should policy in this Nation be driven by people who 
starve animals or exhibit cruelty to them?
    Why are we propping up, as the primary argument of the 
opponents of this legislation, the fact that some people will 
starve animals and, therefore, we shouldn't stop cruelty?
    Those people should be prosecuted under state anti-cruelty 
statutes. That is what those statutes allow for, and if Mr. 
Stenholm or the other opponents of this legislation have 
evidence of people within their community starving or 
neglecting or abandoning horses, please give it to us because 
we will work with law enforcement authorities to stop this 
cruelty.
    You know, I really think that horses in our society have 
moved more in the category of dogs and cats. You know, we don't 
take unwanted dogs and cats and ship them to slaughter houses 
so they can be exported for human consumption.
    And, you know, now that the U.S.-based slaughter houses 
have closed, we are talking about a type of cruelty that is 
more extreme than ever.
    We are talking about transport distances into central 
Mexico that may be 1500 miles, horses crammed onto cattle 
trucks where they cannot even stand; underfed, underwatered 
animals on long-distance transport.
    And then when they get to Mexico, no standards for humanely 
killing the animals.
    We documented. Our humane society investigators have been 
at the plant in Mexico, and we have it on tape, and we have 
submitted it to the Committee the horses going into the kill 
box and being stabbed with a short knife or a boning knife.
    You know, the San Antonio News went to a slaughter plant 
that we investigated and showed footage of. This was after our 
investigation exposed the cruelty. And the reporter described a 
scene. She said the American mare swung her head franticly when 
the door shuts to the kill box trapping her inside.
    A worker jabbed her in the back with a small knife seven, 
eight, nine times. Eyes wild, she lowered her head and raised 
it as the blade punctured her body around the withers again and 
again.
    At the tenth jab, she fell to the floor of this Mexican 
slaughter house, bloodied and paralyzed but not yet dead. She 
would lay there for a good 2 minutes before being hoisted from 
a chained rear leg so her throat could be slit and she could be 
bled to death.
    You know, we could do better than this as a society. If we 
are a humane species, we must be humane to the less powerful 
among us.
    These creatures cannot speak for themselves. We have laws 
in this society that say that cruelty to animals is wrong. If 
those laws mean anything, they should be applied to these 
circumstances where we are being barbaric to these creatures.
    Thank you very much, and I would like to ask that a 
tabulation of reports from horse rescuers where they have been 
competing against killer buyers to save these horses be entered 
into the record as well as the letter from the ASPCA.
    [The information referred to is available in the Appendix.]
    Mr. Pacelle. Thank you very much.
    [The prepared statement of Mr. Pacelle follows:]

                  Prepared Statement of Wayne Pacelle

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. And I thank all of our witnesses for 
their testimony. They will be called on in due course.
    I would like to recognize, at this time, the gentleman from 
Wisconsin, Mr. Sensenbrenner, and the gentleman from North 
Carolina, Mr. Coble, who are with us today.
    We will now have questions, and I will recognize myself for 
5 minutes to begin with Dr. Boyd.
    Dr. Boyd, you have a Ph.D. in economics?
    Mr. Boyd. Yes.
    Mr. Scott. Can you talk very briefly about the impact of a 
prohibition on the farming business--on our farming business?
    Mr. Boyd. Yes, I can.
    I think one of the things that I was listening to, Mr. 
Stenholm, when he spoke about property rights. I bought these 
horses and they belong to me. I can kill them or slaughter them 
or whatever it is that I may want to do with the horses.
    And it wasn't that long ago that they viewed African-
Americans in the same way in slavery, as property, and I can do 
what I want to do when I want to do it.
    And I think it goes back to the line in the sand that I 
spoke about there, Mr. Chairman, about a mere right and wrong 
with this issue as far as it equates to horse slaughter.
    There is no horses running down the street that people 
don't want, that you heard some of the panelists talk about.
    We think that we can provide good homes within our 
organization for horses, and we plan to work with the rescues 
to place these horses around the country.
    So I don't--and nobody really knows--I have done my own 
research before I got involved in this issue, Mr. Chairman, 
nobody knows the real numbers.
    I checked with USDA; they really didn't know the real 
numbers of what they say may be ``unwanted horses.''
    So to answer your question, they don't know what the 
numbers are. But I can tell you that horse slaughter--horse 
slaughter is wrong.
    Mr. Scott. Ms. Ross, Mr. Stenholm mentioned costs to 
localities, did you have a response to that?
    Ms. Ross. Well, thank you for the question.
    What we have seen traditionally is that while localities 
may certainly be involved in animal cruelty cases or the 
seizure of horses, we have a network of rescues across the 
country that work in partnership with the authorities. And most 
usually, they are actually taking those horses in and providing 
for them from their own private funds and from the money of 
individual donors.
    So, again, I do not believe that there will be a 
significant economic impact or any economic impact on local 
municipalities.
    What I would like to say is that with slaughter, there has 
been a very negative economic impact on jurisdictions that were 
unwilling hosts to the slaughter plants.
    Paula Bacon, the former mayor of Kaufman, Texas, which was 
home to Dallas Crown, fought for years with her city council 
trying to get the slaughter house out of there because it was 
such a negative economic drain and environmental hazard for 
that community in terms of the money that they had to put into 
revamping their sewer system to deal with the blood and other 
bi-products of the slaughter industry.
    There were people in that town who couldn't open up their 
windows or run their air conditioners because the stench was so 
horrific. There was blood in the streets. The emergency workers 
and the fire workers had to work repeatedly with blood that was 
left in the road.
    And this was a huge economic impact on the community and on 
the city.
    And so, if anything, there is a very negative environmental 
impact to this trade.
    Mr. Scott. Thank you.
    Mr. Stenholm, if you have horses slaughtered for human 
consumption, how do we know that no inappropriate drugs like 
steroids has whatnot were--that the horses were carrying drugs, 
steroids, or whatever?
    Mr. Stenholm. When we had the three processing plants in 
the United States operating, all of the meat, other than that 
which went to zoo animals, went to Europe for human 
consumption.
    All of the health restrictions that applied to the 
Europeans on what is in or out of the meat applied to the 
inspection of those carcasses.
    I have to assume that the food safety veterinarians, the 
food and drug experts and all of the people that were concerned 
about that very question were doing their job.
    Mr. Scott. Are there any plants still in operation in the 
United States?
    Mr. Stenholm. No.
    Mr. Scott. Then if they are being used for human 
consumption, they would not be slaughtered in the United 
States? They would be slaughtered somewhere else?
    Mr. Stenholm. Yes.
    Mr. Scott. How do we know that the horses are, from a 
health perspective, appropriate for slaughter for human 
consumption?
    Mr. Stenholm. Those plants that are operating in Canada and 
in Mexico are abiding by the same rules for human consumption 
that Europe imposed upon us and Japan imposed upon us when we 
were processing horses and shipping the meat to them.
    We cannot guarantee 100 percent compliance, no matter how 
many laws we pass. I would guess that there is probably a 
quarter of a million stop signs in Washington, DC. A few of 
them are being run as we speak.
    Laws are going to be broken. And I would say here--this 
emotion--Mr. Pacelle is excellent at emotion.
    But when you begin to associate me with child killers 
because of the opinion that I have on horse processing, that 
goes over the top as far as I am concerned. And I know you will 
say you didn't mean it that way, but when you get into making 
those innuendos, that is what makes this such an emotional 
issue.
    And I want to repeat: No horse owner that does not wish 
their horse to be processed for human consumption should ever 
have their horse processed for human consumption.
    But there are unintended effects now by having no 
processing plants available in the United States. We have cost 
to the horse industry in excess of $1 billion in economic 
activity.
    Now, Dr. Boyd, I appreciate what you are saying, but I 
don't believe all of your members who own horses would prefer 
to have their horse euthanized at a cost of $200 to $2,000, 
depending on where you are, versus receiving a value for that 
horse.
    Now, if we absolutely eliminate this, livestock markets 
will no longer be able to sell horses.
    Mr. Scott. Thank you.
    Mr. Pacelle. May I respond to that, Chairman Scott?
    Mr. Boyd. Mr. Chairman?
    Mr. Scott. Very briefly, Mr. Pacelle.
    Mr. Pacelle. You know, there are two bills at issue here, 
and the Cruelty Statistics Bill--I made the link between animal 
cruelty and human violence. It is well documented in the 
sociological literature, and I was really confining my comments 
there.
    The sort of cruelty that we see in the horse slaughter 
industry is institutionalized cruelty. It is done by the 
slaughter plants.
    And I think that there is a distinction there, but I do 
want to just say very, very briefly that this issue that 
Congressman Stenholm mentioned about imposing views--there is a 
very fundamental question as we deliberate our responsibilities 
to animals.
    He says, well, if you don't want to slaughter your horse, 
then you don't have to, but let us do it.
    Well, to me, that is the same as saying, well, if you don't 
want to put your dog in a dog fight, don't do it. But if I want 
to put my dog in a dog fight, then that is acceptable.
    The reason that we have laws is we have standards that are 
based on social norms. And the norm here is that we don't think 
cruelty is acceptable.
    And just because you have the power to do it, doesn't mean 
you should do it.
    Mr. Scott. Thank you.
    Dr. Boyd?
    Mr. Boyd. I just wanted to respond to Mr. Stenholm. I 
disagree that they won't be able to sell these horses at some 
of the buying stations around the country. That is not 
accurate.
    We have had horses in this country since probably before we 
were here. And horses were here and nobody was eating horses 
that I am aware of.
    And to the point of Mr. Stenholm, I don't know of a Black 
farmer that raises horses for food consumption. We just don't 
do that, Mr. Chairman.
    So that is--the Senator isn't quite accurate here.
    Mr. Stenholm. Mr. Chairman, briefly for the record, up 
until 1944, we consumed horse meat in the United States.
    In fact, during World War II, it was recommended that we 
eat horse meat so that the beef could go to our troops who were 
winning World War II. That needs to be in the record.
    We did. We no longer do.
    Mr. Scott. Thank you.
    The gentleman from Texas has asked me to defer first to the 
gentleman from North Carolina, Mr. Coble.
    Mr. Coble. I thank both of you. I have a transportation 
hearing going on now.
    Mr. Chairman, I appreciate that.
    Good to have you all with us, especially our old buddy from 
Texas who is back on the Hill. Good to see you again, Charlie.
    Mr. Stenholm, I am told that more than 29,000 horses have 
been exported to Mexico this year. And that is, obviously, a 
large number of horses to place in rescue facilities that are 
already at capacity.
    Where will these horses go?
    Mr. Stenholm. Well, with all due respect to Ms. Ross and 
her testimony, there are those that believe that there will be 
an immediate home for them. And I hope they are right.
    You know, if this legislation is passed, I hope they are 
right.
    But you only have to look at the plight of the Wild Horse 
and Burro Program right now. We have 40,000 horses that are in 
pens and in various sanctuaries around the country.
    It is becoming a budget problem for the Congress that you 
are going to have to deal with. And that 40,000 is only what we 
know about.
    I agree with the others who have said we don't know the 
numbers on this exactly, but we do know what is happening in 
Illinois.
    I refer to my testimony which, Mr. Chairman, I failed to 
ask to be part of the record.
    Mr. Scott. The testimony--the written statements, in their 
entirety, will be made part of the record.
    Mr. Stenholm. We do know what is happening in Illinois. We 
do know what is happening in Colorado. And we do know that 
there are unwanted horse problems all over the United States.
    But those 29,000 horses that are going to Mexico is what 
will effectively stop if this legislation should pass, which is 
the intent of it.
    But I don't see how you will enforce it because how do you 
determine the use of your horse once you sell your horse? It 
then belongs to the next owner.
    And trying to superimpose your will on an owner of a 
property is going to be difficult.
    Mr. Coble. Thank you, Mr. Stenholm.
    Ms. Ross, if you will, let me visit with you a minute.
    Are existing sanctuaries sufficient to handle the enormous 
number of abandoned horses, A? And how much range do they need 
to be humanely treated?
    Ms. Ross. I would like to start by responding to that 
question by saying that the number of horses going to slaughter 
is reflective of market demand and the capacity of the 
slaughter houses to process those animals. It is not reflective 
of the number of unwanted horses.
    I actually have reports here that we were able to research 
these instances of so-called unwanted horses running at large. 
And instance after instance, we have got authorities refuting 
these claims.
    If I can just read a few----
    The Ohio Division of Forestry said there was no knowledge 
of any horses being turned loose in the state's forests.
    In Kentucky, we have got the governor saying that these 
statements about horses running at large were filled with 
inaccuracies.
    In Utah, we have got the Department of Natural Resources 
saying we do not have any reports of horses being abandoned on 
our wildlife management areas.
    So again and again and again, every time we check these 
facts about these stories, we are finding that this simply is 
not true.
    With regard to the infrastructure of sanctuaries, the 
number of sanctuaries has actually risen in this country. We 
have got approximately 415 now. There is a growing effort to 
professionalize that community.
    Again, I sit on the board of directors of the Global 
Federation of Animal Sanctuaries. We are providing oversight 
and professional assistance to these rescues. Rescues ought to 
be operating at capacity by their very definition. And that is 
what they do.
    They are bringing horses in. They are rehabbing them. They 
are re-homing them and bringing more horses in.
    Mr. Coble. Well, how much range would be needed for you----
    Ms. Ross. Well, again, it depends what the management style 
is. But, again, you want to have the ability to turn out a 
horse in pasture to have exercise and interaction with the 
other herd members.
    But there is no shortage of ranch and range space in this 
country to put those horses on and to operate several 
sanctuaries.
    Mr. Coble. Thank you.
    Dr. Boyd, how will H.R. 6598 prevent Mexican or Canadian 
horse processing facility buyers from simply circumventing the 
law by labeling horses as breeding stock or for other non-
slaughter purposes?
    Mr. Boyd. Right. That is a good question.
    Well, I think you get into tricky water when we try to 
regulate what happens in Mexico and some of these other 
countries. We really don't have jurisdiction to address that. 
What we should be looking at, Congressman, is actually with the 
bill.
    How can we allow horse slaughter here in the United States 
when there is really not any need for it?
    Liz addressed the issues with the horse sanctuary. We don't 
have all of the answers. That is number one.
    But number two, we should be looking at other organizations 
and reaching out to other constituencies right here in the 
United States. For instance, the Farm Bureau.
    The Farm Bureau has a far greater constituency than the 
National Black Farmers Association. Has anybody reached out to 
them to see what they can do to partner and take some of these 
horses, you know, in the future as things arise?
    So I think there is things that we can do right here in the 
United States to deal with the issue.
    And, you know, here again, we just don't have, you know, 
jurisdiction over Mexico and what other people are going to be 
doing to break the law.
    Mr. Coble. I thank you. Thank you for being here.
    Mr. Chairman, I yield back.
    Mr. Scott. Chairman of the Committee, the gentleman from 
Michigan, Mr. Conyers, is recognized for 5 minutes.
    Mr. Conyers. Thank you, Chairman Scott.
    You know, John Boyd, if your dad had been as violent with 
you now as he was then, we would have him up for charges on 
some kind of abuse, if so.
    That day has come and almost gone. There is still parents 
that believe that children are spoiled if the rod is not used, 
and we are still working that out as well.
    Charles Stenholm, if we weren't in a $1.3 trillion 
misbegotten war, there wouldn't be any problem.
    I need to continue our discussion about that because I know 
your fiscal approach during your decades here made that a very 
important matter for you.
    Now, what is really tough for me is I have got to persuade 
my distinguished judicial friend from Texas about the merits of 
my legislation. He scrutinizes this with great care.
    And we have worked together on several pieces of 
legislation, court security and some other matters that brought 
us together.
    So what I wonder, with my time, is just ask a few of you 
how I might be able to raise the kinds of considerations that 
would tend to bring Judge Gohmert and I closer together as we 
explore this subject.
    What would you say about that, Mr. Pacelle?
    Mr. Pacelle. You know, I really do think, Chairman Conyers, 
that this is a matter of personal responsibility; that, you 
know, a lot of the Members of this Congress on both sides of 
the aisle say that legislation is no substitute for 
responsibility.
    And in the care of animals, I think that is especially the 
case.
    Really, what we are talking about here is there was no 
defense of the commerce of horse slaughter.
    People say it is not vital to the economy. It is not vital 
to the livelihood of the individual. They have basically said 
if you don't have slaughter, you are going to have neglect or 
abandonment.
    And I think, really, the answer is for all of us to impress 
upon people is that we are asking decent people to be 
responsible in the care of horses. And if they cannot care for 
the animal because they don't have enough money because of high 
hay prices, they have a duty, a solemn duty to euthanize the 
animal or to place the animal in a sanctuary; to sell the 
animal for $200 or $300 or $400 to slaughter absolves some of 
the responsibility in a legal sense but not in a moral sense.
    Mr. Conyers. Uh-huh.
    What do you have to add, Dr. Dodman?
    Mr. Dodman. Well, it seems to me that there are some people 
on the side of slaughter who adjust--they adjust all the facts 
to support their case, and it doesn't matter whether it is what 
are you going to do with the dead bodies or, you know, $2,000 
to euthanize a horse or the cost of hay or gasoline or any----
    Every single argument, every single ringer argument that 
possibly could be used to defeat this motion is being conjured 
up. And most of it, there is little support for.
    You know, I--my--for example, on the matter of disposal of 
the remains, I wrote a letter to the AVMA Journal which they 
initially rejected because they said I hadn't referenced it.
    So I referenced it and I sent it back in to the Journal 
with the references. And then they said, actually, they would 
prefer not to publish it because they weren't so sure about my 
references which were about, you know, from agriculture 
bureaus.
    And then they put their own thing up on their Web site, and 
it is a Q and A which is full of unsubstantiated, undocumented 
mistruths.
    So there are people who would have you believe things, and 
they are twisting the facts. They are not--I would think 
everything should be proven.
    If they say there is an increase in abuse and neglect, they 
should prove it because right now what is going on is abuse and 
neglect. So that is guaranteed.
    The other side of the equation, we don't even know what it 
is, but we suspect it is much better than they think.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Corey. Can I make a comment?
    Mr. Scott. Very briefly.
    Mr. Corey. I mean, we have got a--the only two studies that 
I am aware of, one in Colorado just recently, has indicated and 
documented a 40 percent increase in abuse and neglect and 
abandonment.
    We also have an Illinois study, I don't have that exact 
percentage, maybe Congressman Stenholm does. But those are 
documented.
    And we are working to educate equine owners to own 
responsibly. And that is part of the Unwanted Horse Coalition's 
goal; to own responsibly. So that is happening.
    And also, as far as the--Ms. Ross' comments about rescues 
and sanctuaries, there is no data on the exact number of those. 
However, AAEP, the members, are out there in the field every 
day working, and we see this.
    We get reports from our members that we do see an increased 
number of horses that are abandoned and neglected and abused.
    Just the funds, the economy, and everything, hay prices at 
$300 a ton, it is very expensive. So those statistics are real.
    Mr. Scott. Thank you.
    The gentleman from Texas, the Ranking Member?
    Mr. Gohmert. Thank you, Chairman Scott.
    There are a number of difficult issues, and I agree with 
the witnesses who said they don't know anybody that has ever 
raised horses for consumption. I mean, I have grown up around 
horses my whole life, and I don't know of anybody that has ever 
raised them for consumption, either.
    But on the issue of horses being euthanized, you know, I 
have tried to get to the bottom of what exactly is involved, 
what would be the best way to euthanize a horse; what would be 
acceptable in the eyes of most people with caring hearts and 
common sense?
    I have had people who said, you know, we certainly don't 
need the horse slaughter plants because, you know, you can do 
like my daddy always did, if you just let them die of natural 
causes, and if something happens, you shoot them and then you 
take your backhoe and you dig a hole and you bury him.
    Then I have had it reported that actually between local, 
state, and Federal environmental requirements, you really 
should be getting the hole supervised, make sure you get the 
right amount of lime, see if there is going to be contamination 
of the ground water, and you are subject to heavy fines if you 
don't do it right.
    So, you know, when the Federal Government gets involved, we 
have got so many different aspects to be considered.
    But it would be nice to have accurate statistics on these 
things so we could just say, okay, here is the right statistic. 
And I am very much in favor of that.
    The bill says very simply, and--I applaud simplicity, and I 
appreciate Chairman Conyers' simplicity in the bill.
    It is basically, you know, just barely more than a page 
that says the data on all crimes of animal cruelty will be 
collected and made publicly available. But as I mentioned in 
the opening statement, you know, they are not required to 
collect and gather that data on a local level.
    I have had sheriffs tell me that--and this is anecdotal, so 
I don't have hard evidence other than just telling me--man, we 
have had a lot more horses turned loose and, you know, we just 
deal with it. But it has been a problem.
    But then they would throw it, but I don't need all those 
folks after me, so don't get me in the middle of this.
    So that gets kind of tough to get accurate information. Is 
this anecdotal? This is one horse they have dealt with? Is this 
dozens of horses?
    But then I did personally hear from a dear, sweet lady who 
is dedicated to helping underprivileged children. She has got a 
form that she uses for underprivileged children.
    And she contacted me and said if we can't sell your horses 
like this when they are at the end of their usefulness, I can't 
keep accepting horses that people donate. She said the trouble 
with that is these horses really open the kids up. They----
    And we have got some special-needs schools in my county, in 
my district, where they use horses. And horses have an amazing 
ability--I am sure most of you all know--to--when kids get 
around them, they all of a sudden become more open and become 
more easily educated.
    But she said, I can't afford to take money away from what 
we use for the kids to dispose of the horses. And so she was 
supporting not having laws to close the facilities.
    And so I have wondered, you know, is there a middle ground? 
Is there some way to make sure that these horses are not so 
inhumanely treated?
    I am just curious what would be, in your opinion, the best 
way to euthanize a horse? I am not terribly convinced that we 
are all that humane, oftentimes, dealing with cats and dogs.
    So--yeah, Dr. Dodman?
    Mr. Dodman. Well, I can address that and, you know, if we 
had the support of the veterinary bodies like the AVMA and the 
AAEP, we could form a committee and come to a consensus.
    But, you know, I have dropped to the ground thousands of 
horses in my life. I can drop them on a dime. They fall to the 
ground very gently and peacefully.
    I could design a regimen in a place where a horse is put 
behind a squeeze board and is injected with certain drugs where 
he would just fall quietly to the ground.
    I did it over and over every day, sometimes several times a 
day. I could take a horse in a field, and I can give him a 
double cocktail, and I could have him sink peacefully to sleep, 
and then I can administer an intravenous--I mean, I could 
easily----
    Mr. Gohmert. So injection, you believe, is the best way to 
do this?
    Mr. Dodman. Really, the only way.
    I was involved a little bit with the human euthanasia 
situation, and I don't think the human situation is 
particularly kind with the triple combination that was recently 
voted as okay.
    And my testimony there was that, you know, a straight 
barbiturate injection would be, by far, the best way to 
euthanize a person. And I don't know why they had that----
    Mr. Gohmert. Well, just a follow up on that.
    I have been given information that AAEP and the AVMA both 
advocate the captive bolt method for euthanasia. Is that 
correct?
    Mr. Dodman. Well, a little bit, sir.
    See, the thing is what they say is--which is true--is that 
if you take, say, a big practice down in Kentucky or something 
which was recently talked about by Dr. Bramlidge, his 
neighboring practice--under certain circumstances, when a horse 
is in a situation of extremeness, when the blood pressure is 
extremely low, when the drugs are going to travel slowly to 
where they are supposed to go, perhaps, equipment prevailing, 
if you have a skilled operator and a stationary horse, a 
captive bolt may be a second string way of killing a horse.
    But it isn't humane the way it is done in the euthanasia 
process when the bobbing, moving head by unskilled operators 
who have, obviously, no compassion for animals, shouting, 
swearing, banging. I mean, the horses----
    Recently, we heard of cattle, which are much quieter 
animals, that 2 percent of cattle are improperly stunned. My 
estimate was 30 percent of horses are improperly stunned for 
that very reason.
    That is a totally different situation from AVMA's position 
in the field with a skilled operator using a captive bolt in an 
animal that is not appropriate for IV drugs.
    Mr. Gohmert. Okay.
    Can I have unanimous consent to allow Dr. Corey to add--you 
had something to add, Doctor?
    Mr. Corey. Yes.
    If you don't mind, I would like to comment on that.
    First of all, veterinarians--equine veterinarians--
euthanasia is not--is not fun. Nobody likes to--excuse me--
euthanize an animal.
    But the AVMA did engage a panel in the year 2000, I believe 
it was or 2001, on a panel on euthanasia, and they came up with 
three forms: The use of barbiturates, the use of captive bolt, 
and gun shot were the three.
    And those guidelines were reinforced, I believe, in 2007. 
So those are up to date, and no matter how you euthanize a 
horse, not every one is going to react the same.
    I don't care whether you use barbiturates or captive bolt, 
every one will be a little different.
    It would be nice if every one went down--every horse went 
down the same, but not all react the same to euthanasia. And 
never is it a fun thing to do.
    Mr. Gohmert. Thank you.
    Mr. Pacelle. May I comment briefly on that? All right.
    I think, you know, there is one thing when you are talking 
about the difference between barbiturates and captive bolt and 
gun shot. But the added factor here in terms of the welfare--
the animal welfare equation is the long-distance transport.
    If you do this to the animal at the site, whether it is a 
gun shot, captive bolt, or barbiturates, you know you are 
basically going to, you know--the animal may suffer for a 
couple of minutes more.
    But when you transport the animal a thousand miles or 1500 
miles, you know it is going to be hours or days. And that, I 
think, is the central animal welfare question for us.
    On the handling of the carcasses, I do want to point out 
that there are 34 million cattle slaughtered in America every 
year. The USDA says there are 1 to 2 million dead stock--cattle 
who die on the farms.
    The farmers are already disposing of those bodies which are 
functionally equivalent in terms of the weight.
    Mr. Gohmert. And, hopefully, most of them are doing it 
appropriately.
    Mr. Pacelle. Right.
    Mr. Gohmert. I have got concerns about that.
    Mr. Pacelle. We are already disposing of large bodies of 
mammals in farming situations. And there are mechanisms for it, 
and there are may be some costs.
    Mr. Gohmert. Thank you.
    And I have to say, I don't think I have ever heard anybody 
say they were able to stop a horse on a--or drop a horse on a 
dime. That is a little different.
    But anyway, thank you, Mr. Chairman. You have been very 
indulging of the time.
    Mr. Scott. Thank you. Are there other questions?
    If not, I want to thank the witnesses for their testimony 
today.
    Witnesses, Members may have additional written questions 
which we will forward to you and ask that you answer as 
promptly as you can in order that the answers may be made part 
of the record.
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials.
    And without objection, the Subcommittee stands adjourned.
    [Whereupon, at 10:58 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Mr. Chairman, for your leadership in convening today's 
very important hearing on H.R. 6598, the ``Prevention of Equine Cruelty 
Act of 2008'' and H.R. 6597, the ``Animal Cruelty Statistics Act of 
2008.''
    The hearing will examine the paucity of data regarding animal 
cruelty crimes, along with H.R. 6597, which would require the Attorney 
General to collect data on the commission of animal cruelty crimes. 
This hearing also will examine current practices regarding the 
slaughter of horses for human consumption, and H.R. 6598, which would 
criminalize the sale, purchase, receipt, delivery, possession, 
transportation, and shipment of horses for the purpose of human 
consumption.
    Legislation is needed on animal cruelty. The government currently 
does not collect specific data on animal cruelty crimes. Rather, the 
data, if collected at all, is usually included in an ``other crimes'' 
section that yields no useful information on the problem. Numerous data 
bases exist that could collect this information if the databases were 
modified in a manner to require the entry of specific data regarding 
animal cruelty crimes.
    The comprehensive and consistent collection of data on animal 
cruelty crimes would provide heightened awareness to the problem of 
animal cruelty and could assist in the meaningful allocation of 
resources to fight the problem of animal cruelty. In addition, the 
collection of data on such crimes could also be helpful in combating 
domestic violence, as social science research indicates an association 
between animal abuse and family violence. Numerous groups fighting 
domestic violence have supported the collection of animal cruelty data 
specifically because of this strong connection with family violence.
      a. h.r. 6597, the ``animal cruelty statistics act of 2008''
    I support H.R. 6597. H.R. 6597, the ``Animal Cruelty Statistics Act 
of 2008'' also requires the collection of data on animal cruelty 
crimes. It does not mandate the creation of a separate offense category 
or specify the relevant databases. Rather, it directs the Attorney 
General to make appropriate changes to existing crime data bases so 
that data on animal cruelty crimes will be collected and made available 
to the public.
    The approach of allowing the Attorney General to determine the best 
way to collect the data, as opposed to mandating the creation of a new 
category, was preferred for a number of reasons. First, the Attorney 
General is the most familiar with crime databases and is in the best 
position to determine how best to collect this information. Second, 
since its creation in the 1920s, the UCR has added only one new 
category, and that was for arson. A bill that mandates the creation of 
a new category could create a precedent that could prove cumbersome in 
the future. Third, the UCR and certain other crime databases are 
voluntary and it was determined that mandating changes to voluntary 
systems may not be appropriate and may not yield comprehensive results.
     b. h.r. 6598, the ``prevention of equine cruelty act of 2008''
    I support. H.R. 6598, which has bipartisan support, criminalizes 
the possession, shipment, transport, purchase, sale, delivery or 
receipt of any horse with the intent that it be slaughtered for human 
consumption. The bill also criminalizes the shipment of horse carcasses 
or flesh for the purpose of human consumption. The law provides for 
both misdemeanor and felony offenses. A first time offender whose 
conduct involves less than five horses or 2000 pounds of horse flesh 
would be guilty of a misdemeanor. A repeat offender, or someone whose 
crime involves more than five horses or 2000 pounds flesh, faces a 
felony conviction with a statutory maximum sentence of three years 
prison.
    Because legislation is missing in the area of animal cruelty, I 
laud these bills as a powerful step toward developing legislation that 
will be useful in this area. I urge my colleagues to support these 
bills
    Thank you, Mr. Chairman. I yield the remainder of my time.

                                <F-dash>

  Letters from the American Quarter Horse Association, and the Animal 
      Welfare Council submitted by the Honorable Louie Gohmert, a 
Representative in Congress from the State of Texas, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

     Letter from the American Veterinary Medical Association (AVMA)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

      Letter from Charles W. Stenholm, Olsson Frank Weeda Terman 
                     Bode Matz PC, Attorneys at Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Additional Material submitted by Wayne Pacelle, President and CEO, 
Humane Society of the United States, Washington, DC<greek-l>D included 
                              D to H deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Attachments to Prepared Statement of Wayne Pacelle, President and CEO, 
          Humane Society of the United States, Washington, DC

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
